\

    VA Office of Inspector General
                                     OFFICE OF AUDITS AND EVALUATIONS



                                                                        Department of 

                                                                        Veteran Affairs
                                                                           Audit of VA's

                                                                        Hearing Aid Services




                                                                                       February 20, 2014
                                                                                         12-02910-80
             ACRONYMS AND ABBREVIATIONS 


C&P          Compensation and Pension
DALC         Denver Acquisition and Logistics Center
OIG          Office of Inspector General
ROES         Remote Order Entry System
VA           Veterans Affairs
VHA          Veterans Health Administration




       To Report Suspected Wrongdoing in VA Programs and Operations: 

                            Telephone: 1-800-488-8244 

                           Email: vaoighotline@va.gov

                      On the Web: www.va.gov/oig/hotline

                     Report Highlights: Audit of VA’s
                     Hearing Aid Services


Why We Did This Audit                           system, staff cannot adequately respond to
                                                veteran and medical facility inquiries.
Tinnitus and hearing loss were the first and
second most prevalent service-connected         What We Recommended
disabilities   for     veterans     receiving
compensation at the end of FY 2012. We          We recommended the Under Secretary for
conducted this audit to evaluate the            Health develop a plan to implement
effectiveness of VA’s administration of         productivity standards and staffing plans for
hearing aid order and repair services.          audiology clinics. Also, we recommended
                                                the Principal Executive Director of the
What We Found                                   Office of Acquisition, Logistics, and
                                                Construction ensure DALC determines the
VA was not timely in issuing new hearing        appropriate staffing levels for its repair lab
aids to veterans or in meeting its 5-day        and establish controls to timely track and
timeliness goal to complete repair services.    monitor hearing aids for repair.
During the 6-month period ending
September 2012, the Veterans Health             Agency Comments
Administration issued 30 percent of its
hearing aids to veterans more than 30 days      The Under Secretary for Health and
from the estimated receipt date from their      Principal Executive Director, Office of
vendors. Medical facilities’ audiology staff    Acquisition, Logistics, and Construction,
attributed the delays to inadequate staffing    and the Office of Inspector General
to meet an increased workload.                  concurred with our recommendations. We
                                                consider the corrective action plans they
The Denver Acquisition and Logistics            submitted acceptable.
Center (DALC) took 17 to 24 days to
complete hearing aid repair services—
exceeding its 5-day timeliness goal. During
this period, 5 of 21 repair technician
positions were vacant. These vacancies and
an increased workload adversely affected
DALC’s ability to meet its timeliness goal
for hearing aid repairs. We observed and                   LINDA A. HALLIDAY
estimated about 19,500 sealed packages of              Assistant Inspector General
hearing aids were waiting for repair and                for Audits and Evaluations
staff to record the date received into
DALC’s production system. According to
management, staff did not record the date
they received the packages because opening
packages had the potential risk of losing
small parts. Without a timely recording

                                                                                             i
                                           TABLE OF CONTENTS 


Introduction......................................................................................................................................1
 

Results and Recommendations ........................................................................................................2
 

    Finding                VA Needs To Improve Timeliness of Issuing and Repairing Hearing Aids ......2
 

                           Recommendations ...............................................................................................8
 

Appendix A                 Background .......................................................................................................10
 

Appendix B                 Scope and Methodology....................................................................................11
 

Appendix C                 Statistical Sampling Methodology ....................................................................13
 

Appendix D                 Under Secretary for Health Comments .............................................................15
 

Appendix E                 Principal Executive Director of Office of Acquisitions, Logistics, and 

                           Construction Comment .....................................................................................17
 

Appendix F                 Office of Inspector General Contact and Staff Acknowledgments ...................19
 

Appendix G                 Report Distribution........................................................................................... 20
 




                                             	




                                                                                                                                                 ii
                                                                 Audit of VA’s Hearing Aid Services



                    INTRODUCTION
Objective           We conducted this audit to evaluate the effectiveness of VA’s administration
                    of hearing aid order and repair services.

VHA Program         The Veterans Health Administration’s (VHA) Rehabilitation and Prosthetic
Office              Services is composed of national programs, including Audiology and Speech
Responsibilities
                    Pathology Service and Prosthetic and Sensory Aids Service. Audiology and
                    Speech Pathology Service is responsible for the overall administration of a
                    system-wide audiology and speech-language pathology health care service,
                    including development and oversight of program policy. Prosthetic and
                    Sensory Aids Service provides a full range of equipment and services to
                    veterans including hearing aids.

VA Medical          Audiology services provided at VA medical facilities include the assessment
Facilities          and treatment of hearing loss and the evaluation and issuance of hearing aids
                    to eligible veterans. During the issuance of the new hearing aids,
                    audiologists fit and adjust the settings of the hearing aids to meet veterans’
                    needs. Veterans can get their hearing aids repaired by VA medical facilities
                    or the Denver Acquisition and Logistics Center (DALC). The repaired
                    hearing aids are returned to VA medical facilities or sent back to the
                    veterans.

Denver              VA’s National Acquisition Center, under the Principal Executive Director
Acquisition         for the Office of Acquisition, Logistics, and Construction, provides oversight
and Logistics
Center
                    of the DALC. DALC provides vendor management and quality control for
                    VA’s hearing aid repair program. Additionally, DALC’s technicians conduct
                    services on a variety of hearing aids from several different manufacturers
                    under contract, such as minor repairs and extensive cleaning.

                    Over 665,000 hearing aids and components were ordered for veterans with a
                    total net sales cost of about $221 million in a 12-month period ending in
                    September 2012. During the same period, VA also repaired approximately
                    394,000 hearing aids at a total cost of about $16.5 million.

Other                  See Appendix A for background information
Information
                       See Appendix B for information on the audit’s scope and methodology
                       See Appendix C for the audit’s statistical sampling methodology




VA Office of Inspector General                                                                   1
                                                                               Audit of VA’s Hearing Aid Services



                    RESULTS AND RECOMMENDATIONS 

Finding 	           VA Needs To Improve Timeliness of Issuing and
                    Repairing Hearing Aids

                    VA was not timely in issuing new hearing aids to veterans or in meeting its
                    5-day timeliness goal to complete hearing aid repair services. During the
                    6-month period ending September 2012, VHA issued 30 percent of its
                    hearing aids to veterans more than 30 days from the estimated date the
                    facility received the hearing aids from its vendors.1 Medical facilities’
                    audiology staff attributed the delays to inadequate staffing to meet an
                    increased workload due in part to the large number of veterans requiring
                    compensation and pension (C&P) audiology examinations.

                    The number of days for DALC to complete hearing aid repair services
                    ranged from 17 to 24 days—exceeding its 5-day timeliness goal by an
                    average of 15 days. According to DALC management, during this period,
                    5 of 21 technician positions were vacant in their repair lab. These vacancies
                    and an increased workload adversely affected DALC’s ability to meet its
                    timeliness goal for repairing hearing aids. Delays in completing repairs have
                    the negative effect of reducing veterans’ quality of life.

                    In addition, DALC management stated staff receives approximately
                    6,500 hearing aids for repair each week. We observed and estimated about
                    19,500 sealed packages of hearing aids were waiting for repair and for staff
                    to record the date received from veterans and medical facilities into DALC’s
                    production system. According to management, staff did not record the date
                    they received the packages because opening packages had the potential risk
                    of losing small parts. Without a timely recording system, staff cannot
                    adequately respond to or track inquiries from veterans and medical facilities
                    concerning the status of a hearing aid pending repair services. DALC needs
                    to establish control over pending hearing aid repair inventories. Identifying
                    and assessing the backlog of hearing aids needing repair will help ensure
                    DALC properly manages its resources and provides timely services to
                    hearing-impaired veterans.




                    1
                      We estimated the receipt date of the hearing aids to VA medical facilities because this date was not
                    recorded. The contract vendors are required to deliver the new hearing aids within 10 days from the
                    date ordered. To determine the estimated receipt date, we added 10 days to the hearing aid ordered
                    date.



VA Office of Inspector General                                                                                          2
                                                                         Audit of VA’s Hearing Aid Services


Timeliness of       VHA did not ensure the timely issuance of new hearing aids to veterans. At
Issuing             the six VA medical facilities we visited, approximately 42 percent of
Hearing Aids
Needs
                    veterans waited more than 30 days from the estimated date the facility
Improvement         received the hearing aids from their vendors to the date the hearing aids were
                    issued. Nationally, approximately 30 percent of veterans waited more than
                    30 days from the estimated date the medical facilities received the hearing
                    aids from their vendors to the date the medical facilities issued the hearing
                    aid.

                    Table 1 shows the number and percentages of hearing aids issued to veterans
                    from the estimated date the facility received the hearing aids to the date the
                    hearing aids were issued for the medical facilities in our sample and
                    nationally.

Table 1                               Number of Days To Issue New Hearing Aids

                          VA Medical Facility               Within 30         31–59 Days        60 Days or
                                                             Days                                 More
                     Central Alabama Veterans Health
                                                               810 (82%)         100 (10%)          15 (2%)
                      Care System (Montgomery, AL)
                     James A. Haley Veterans’
                                                             1,800 (83%)         290 (13%)          50 (2%)
                      Hospital (Tampa, FL)
                     VA New Jersey Health Care
                                                               580 (70%)         180 (22%)          36 (4%)
                      System (Lyons, NJ)
                     VA Palo Alto Health Care
                                                             1,600 (63%)         610 (24%)         310 (12%)
                      System (Palo Alto, CA)
                     Manchester VA Medical Center
                                                               250 (20%)         710 (56%)         300 (24%)
                      (Manchester, NH)
                     Southern Arizona VA Health
                                                               360 (21%)         420 (25%)         880 (52%)
                      Care System (Tucson, AZ)
                     All VA Medical Facilities
                                                           180,600 (63%)      61,500 (22%) 24,200 (9%)
                      (Nationwide)
                     Source: VA Office of Inspector General (OIG) analysis of issued hearing aid orders by
                     VHA from April 1, 2012, through September 30, 2012. Percentages do not add up to
                     100 percent because of rounding for report presentation. In addition, for 7 percent of the
                     universe of new hearing aids ordered, dates were either missing or inaccurate in the
                     DALC’s production system.

                    VHA monitors medical facilities’ ability to provide veterans with timely
                    medical services by using access to care standards, such as patient wait
                    times. Because VHA recognizes the current wait-time data may not depict a
                    true picture of a veteran’s waiting time, we used 30 days from the medical
                    facility’s estimated receipt of the new hearing aids to the date it was issued to
                    the veteran to measure timeliness. We believe 30 days allows sufficient time
                    for medical facilities to issue a hearing aid to a veteran who depends on it for
                    their daily activities.


VA Office of Inspector General                                                                               3
                                                                  Audit of VA’s Hearing Aid Services


Wait-Time           The wait-time measurement for specialty care, which includes audiology
Measurement         appointments, is the percent of those appointments completed within 14 days
                    of the desired date. The desired date is the preferred appointment date the
                    patient or provider proposes. We found inconsistencies in how audiology
                    staff determined the desired date when scheduling appointments to issue
                    hearing aids to veterans. For example, audiology staff stated at one VA
                    medical facility they scheduled appointments between 21 and 30 days from
                    the date of ordering the new hearing aids. This was to ensure the hearing
                    aids would arrive before the scheduled appointment. At another VA medical
                    facility audiology staff stated, appointments are scheduled between 60 to
                    90 days from the ordering date because of workload and staff availability.

Delays              VA medical facilities audiology staff attributed the delays to inadequate
Attributed to       staffing to meet an increased workload, due in part to the large number of
Increased
Workload
                    veterans requiring C&P audiology examinations.          With the veteran
                    population aging, demands for hearing aid services increases. In FY 2011,
                    over 596,000 hearing aids and components were ordered for veterans and in
                    FY 2012, the figure increased to over 665,000.

                    The Veterans Benefits Administration relies on medical facilities and
                    contract physicians to perform C&P audiology examinations to determine the
                    degree of disability or to provide a medical opinion as to whether a disability
                    is related to the veteran’s military service. VHA’s ability to complete C&P
                    audiology examinations in a timely and efficient manner is extremely
                    important to reduce the Veterans Benefits Administration’s claims
                    processing backlog.

                    In FY 2012, the Decision Support System C&P Report stated about
                    151,000 C&P audiology examinations were conducted. According to the
                    FY 2012 Annual Benefits Report, more than 190,000 veterans began
                    receiving compensation benefits for impairments of auditory acuity in
                    FY 2012, which is about a 26 percent increase from FY 2011. This made
                    tinnitus (ringing in the ears) and hearing loss the first and second most
                    prevalent service-connected disabilities for veterans receiving compensation
                    at the end of FY 2012.  

                    Audiology staff stated C&P examination appointments take priority over
                    other appointments, such as those to issue hearing aids, in order to process
                    C&P claims timely. In addition, it takes staff longer to conduct a C&P
                    examination than to issue a hearing aid. For example, at one medical
                    facility, staff scheduled consults that included issuing new hearing aids for
                    45 minutes while scheduling C&P audiology examinations for 75 minutes.
                    At this facility, 36 percent of hearing aids were issued over 30 days after
                    receipt.

                    The VA medical facilities’ audiology clinics located in Lyons, NJ, and
                    Montgomery, AL, were not required to conduct C&P audiology

VA Office of Inspector General                                                                    4
                                                                 Audit of VA’s Hearing Aid Services


                    examinations, since other medical facilities within their health care systems
                    were responsible for completing these examinations. This difference
                    allowed them to issue 70 and 82 percent of the ordered hearing aids within
                    30 days. 

Lack of             VHA’s Audiology and Speech Pathology Service does not have productivity
Productivity        standards and staffing plans for audiology clinics. Without productivity
Standards
                    standards and staffing plans, VHA is not able to make informed decisions on
                    the appropriate number of audiologists to meet patient needs, to provide the
                    opportunity to identify best practices, and to measure and assess staff
                    efficiency and effectiveness.

                    VHA management agreed in principle with VA OIG recommendations to
                    develop physician staffing levels for specialty clinics in the Audit of VHA’s
                    Physician Staffing Levels for Specialty Care Services.2 Even though VHA
                    classifies audiologists as non-physicians, Audiology and Speech Pathology
                    Service management stated they have begun working with the Office of
                    Productivity, Efficiency, and Staffing to analyze the workload. However, a
                    completion date for developing staff and productivity standards for the
                    audiology clinics has not been determined and depends upon the
                    implementation timeline for the physician specialty service clinics.

Hearing Aid         The number of days for DALC to complete hearing aid repair services
Repairs Not         ranged from 17 to 24 days—exceeding its 5-day timeliness goal by an
Completed
Timely
                    average of 15 days for the 6-month period ending September 2012. During
                    this period, the repair lab received and processed approximately
                    204,000 hearing aid repair services. When hearing aids are received for
                    repair, DALC staff makes an evaluation to determine if the hearing aids
                    under warranty are sent to the vendor or if they should complete the repair
                    service. Of the approximate 204,000 hearing aid repair services, DALC
                    vendors completed about 193,000, and DALC completed about 11,000. As
                    an illustration, DALC received a hearing aid on August 6, 2012, and repaired
                    and mailed the hearing aid to the veteran on August 27, 2012, for a total of
                    21 days.

                    Table 2 shows a 6-month period of the total number of DALC hearing aid
                    repair services and the average number of days to complete—none meeting
                    the 5-day timeliness goal.




                    2
                      VA OIG Audit of VHA’s Physician Staffing Levels for Specialty Care Services
                    (Report No. 11-01827-36, December 27, 2012)


VA Office of Inspector General                                                                   5
                                                                         Audit of VA’s Hearing Aid Services




Table 2
                                    DALC’s Hearing Aids Repair Services Completed

                             Month in             Total Number of                Average Number of
                              2012                Repair Services                Days (5-Day Goal)

                           April                          1,700                             18

                           May                            2,100                             19

                           June                           1,800                             19

                           July                           1,400                             17

                           August                         2,000                             23

                           September                      1,900                             24

                            Total                        11,000*                            20

                           Source: DALC Management Information Report
                           *Note: We rounded the number of repair services for each month along with the total
                            amount for report presentation.

Reasons for         This occurred because staff vacancies and an increase in workload adversely
Untimely            affected the timeliness of the repair lab. According to DALC management,
Repairs
                    for the 6-month period ending September 2012, 5 of 21 assigned full-time
                    equivalent technician positions were vacant in the repair lab. In addition, the
                    workload in the repair lab increased by about 10 percent with approximately
                    358,000 repairs in FY 2011 and about 394,000 repairs in FY 2012.

                    DALC management stated the repair lab was last fully staffed in
                    February 2011. The DALC’s Management Information Report from
                    January 25, 2011, through February 24, 2011, showed DALC staff
                    completed about 1,800 repair services in an average of 15 days. Although
                    management stated all 21 assigned full-time equivalent technician positions
                    were filled in November 2012, the repair lab staff may still not be able to
                    meet their 5-day timeliness goal with current workload demands. We
                    estimated a fully staffed repair lab would only decrease the average number
                    of days to complete repair services by about 5 days. This would make the
                    average number of days 15, which is still 10 days more than their 5-day
                    timeliness goal.




VA Office of Inspector General                                                                               6
                                                                  Audit of VA’s Hearing Aid Services


Pending             DALC could not adequately track hearing aids received from veterans and
Repairs             VA medical facilities for repair until DALC staff recorded the hearing aids in
Inadequately
Monitored
                    their production system. Once received by DALC, each package of hearing
                    aids is marked with the date received and then stored on carts labeled with
                    that date. Hearing aids remain on the carts until a technician opens the
                    package and records the veteran’s name, hearing aid’s serial number, and
                    date received in DALC’s production system. After the technician completes
                    this process, the technician starts repairing the hearing aids.

                    DALC management stated they receive approximately 6,500 hearing aids for
                    repair each week. We observed and estimated about 19,500 sealed packages
                    of hearing aids waiting for repair and for staff to record the date received
                    from veterans and medical facilities into the production system. Without
                    timely recording of the date DALC received a hearing aid, repair staff cannot
                    identify if the veteran’s hearing aid was received or report on the status of
                    the repair. The Government Accountability Office’s Standards for Internal
                    Control in the Federal Government states that promptly recording
                    transactions or events maintains their relevance and value to management in
                    controlling operations and making decisions.

Reasons             According to DALC management, it did not record the date it received the
Pending             packages at the time of receipt because opening packages had the potential
Repairs
Inadequately
                    risk of losing small parts. To reduce the risk of losing hearing aid parts, the
Monitored           DALC could consider opening each package on a large tray or container.

                    Without timely recording the veteran’s name, hearing aid’s serial number,
                    and date received in DALC’s production system, staff cannot adequately
                    respond to veteran and medical facility inquiries concerning the status of a
                    hearing aid. Additionally, timely recording of this information maximizes
                    the capability of the production system and provides DALC with the ability
                    to identify and assess the backlog of hearing aids needing repair. This will
                    help ensure DALC properly manages its resources and provides timely
                    service to hearing-impaired veterans. An example follows of how the
                    untimely recording of the date DALC received a hearing aid prevented the
                    staff from tracking a hearing aid received for repair.

                    	 On October 25, 2012, a veteran sent his hearing aid to DALC for
                       repairs. The veteran contacted a health technician at his local medical
                       facility about the status of his hearing aid on November 14, 2012.
                       The veteran was concerned his hearing aid may have been lost
                       because he had not heard from DALC. The health technician made
                       an inquiry to DALC, but DALC staff were not able to determine the
                       status of the veteran’s hearing aid.        According to staff, on
                       November 14, 2012, they were opening and recording the date of
                       packages of hearing aids received on October 19, 2012. On
                       November 16, 2012, the veteran’s record showed his hearing aid


VA Office of Inspector General                                                                    7
                                                                  Audit of VA’s Hearing Aid Services


                        package was received—16 workdays from the date the veteran mailed
                        it to DALC.

Conclusion          Due to the aging veteran population, VA’s audiology service and repair
                    workloads are expected to continue to increase. Therefore, it is imperative
                    that VA effectively manages its delivery of hearing aid services and repairs.
                    By adequately monitoring and benchmarking timeliness for audiology
                    services, VHA can better ensure veterans receive high quality and timely
                    care. Additionally, establishing productivity standards with staffing plans
                    helps to ensure effective and efficient use of funds by providing some
                    certainty that medical facility officials conduct periodic assessments of their
                    staffing needs. Importantly, DALC must ensure that its repair lab staffing
                    can meet present and future workloads to allow for timely monitoring and
                    completion of hearing aid repair services.

                    Recommendations

                     1.	 We recommend the Under Secretary for Health develop a plan to
                         implement productivity standards and staffing levels for audiology
                         clinics.
                     2.	 We recommend the Principal Executive Director of Office of
                         Acquisition, Logistics, and Construction determine the appropriate
                         staffing levels based on workload at the Denver Acquisition and
                         Logistics Center’s repair lab to help meet the timeliness standard for
                         repairs.
                     3.	 We recommend the Principal Executive Director of the Office of
                         Acquisition, Logistics, and Construction ensure Denver Acquisition and
                         Logistics Center management establish controls to timely track and
                         monitor hearing aids from the date received for repair.

VHA                  The Under Secretary for Health agreed with Recommendation 1. The Under
Management           Secretary stated that VHA has a plan in place to establish productivity
Comments
                     standards for all physician specialties to be completed in FY 2015. In
                     response to Recommendation 1, VHA has expanded the plan for
                     establishing productivity standards to include the non-physician discipline
                     of Audiology beginning in FY 2016. To complete this action plan, VHA
                     will provide documentation that Audiology is included in the
                     implementation plan for establishing productivity standards by March 31,
                     2014.

OALC                 Principal Executive Director for the OALC concurred with
Management           Recommendations 2 and 3. According to the Principal Executive Director,
Comments
                     OALC took immediate steps to remedy Recommendations 2 and 3. For
                     Recommendation 2, a June 2013 new contract requires vendors, instead of
                     the DALC, to complete ear mold services on hearing aids needing repairs.
                     Previously the responsibility of DALC’s repair lab, this process has helped

VA Office of Inspector General                                                                    8
                                                                 Audit of VA’s Hearing Aid Services


                     to eliminate the backlog of repairs. In addition, DALC received funding for
                     two positions in the repair lab. For Recommendation 3, in May 2013,
                     DALC implemented a new standard that requires hearing aid repair requests
                     be captured in its centralized automated system whereby the receipt of aids
                     is logged within 24 hours of receipt.              OALC requested these
                     recommendations be closed as complete.

OIG Response         The Under Secretary’s and Principal Executive Director’s comments and
                     corrective action plans are responsive to the intent of the recommendations.
                     We will monitor implementation of VHA and OALC’s planned action and
                     will close the recommendations when we receive sufficient evidence
                     demonstrating progress in addressing the issues identified.




VA Office of Inspector General                                                                   9
                                                                             Audit of VA’s Hearing Aid Services


Appendix A          Background

Hearing Aids        Different types of hearing aids are made to accommodate various types of
                    hearing loss and veterans’ needs. Based on our universe of hearing aid
                    orders, the average cost for each contracted hearing aid was $369. In
                    comparison, on the open market, one vendor’s retail prices for similar
                    hearing aids ranged from $1,400 to $2,200.

Eligibility         Public Law 104-262, the Veterans Health Care Eligibility Reform Act of
                    1996, provided eligibility reform to prosthetics. Title 38, Code of Federal
                    Regulations, §17.149 allows VA to provide hearing aids to veterans who
                    have service-connected hearing disabilities rated zero percent if there is
                    organic conductive, mixed, or sensory hearing impairment.

ROES                The Remote Order Entry System (ROES) is part of DALC’s production
                    system. It is an automated system used to support the order fulfillment cycle
                    for medical products and services. VA medical facilities’ staff use ROES to
                    place orders for hearing aids maintained under contract by DALC. In
                    addition, they use ROES to verify the patients’ eligibility for hearing aids,
                    audiometric results, and to request repair services for hearing aids.

Wait Times          The VA OIG previously reported concerns with VHA’s calculated wait
                    times.3 Among the problems reported were administrative staff entering
                    incorrect desired appointment dates. VHA has recognized the need to
                    improve accuracy and validity of wait-time measurements in ambulatory
                    care. In VA’s 2012 Performance and Accountability Report, VHA stated it
                    has revisited the use of the “desired date” in outpatient scheduling. In 2013,
                    VHA anticipated adopting the “agreed upon date” to replace the “desired
                    date” in determining wait times. The “agreed upon date” is the date both
                    provider and patient agreed upon. VHA staff believe this approach promotes
                    negotiation of a date that is both clinically relevant and patient centered. In
                    addition, they expect this to reduce scheduling errors and enhance accuracy
                    of wait-time recording.




                    3
                       VA OIG Audit of VHA’s Outpatient Scheduling Procedures (Report No. 04-02887-169,
                    July 8, 2005); Audit of VHA’s Outpatient Wait Times (Report No. 07-00616-199, September 10, 2007);
                    and Review of Veterans’ Access to Mental Health Care (Report No. 012-00900-168, April 23, 2012)



VA Office of Inspector General                                                                                     10
                                                                 Audit of VA’s Hearing Aid Services


Appendix B          Scope and Methodology

Scope               We conducted our audit work from November 2012 through December 2013.
                    The scope of the audit included an evaluation of the effectiveness of VA’s
                    administration of issued hearing aid orders and completed repairs received
                    from April 1, 2012, through September 30, 2012.

                    We completed the audit work at the DALC located in Golden, CO, and at the
                    following six statistically selected VA medical facilities.

                    	 Central Alabama Veterans Health Care System, Montgomery, AL
                    	 James A. Haley Veterans’ Hospital, Tampa, FL
                    	 VA New Jersey Health Care System, Lyons, NJ
                    	 VA Palo Alto Health Care System, Palo Alto, CA
                    	 Southern Arizona VA Health Care System, Tucson, AZ
                    	 Manchester VA Medical Center, Manchester, NH

Methodology         We identified and reviewed applicable laws, regulations, policies,
                    procedures, and guidelines. Additionally, we conducted site visits and
                    interviewed various levels of staff and management in VHA and DALC to
                    determine interrelationships, performance standards, and processing
                    procedures of VA’s administration of hearing aid services.

                    We used DALC’s ROES to obtain a universe of over 285,000 hearing aid
                    orders and about 199,000 repairs. We evaluated and found no issues with the
                    following.

                    	 Patterns of repeated or preferential ordering for certain brands of hearing
                       aids by clinics and audiologists
                    	 Orders that exceeded the contract price
                    	 Cost and reason for the repair
                    	 Repairs made at inappropriate cost while under warranty

                    We obtained workload and budget records as well as performance standards
                    and reports from DALC’s repair lab to review for patterns and anomalies.
                    Additionally, we reviewed and assessed DALC’s payment and reconciliation
                    processes for orders and repairs. We also determined the closeout process in
                    ROES for completed hearing aid repairs.

                    For our statistical sample of VA medical facilities, we evaluated the
                    timeliness of the hearing aid order process. We also determined if staff
                    tracked hearing aid repair services to ensure timeliness. In addition, we
                    obtained and analyzed Patient Wait Time reports and Patient Encounters

VA Office of Inspector General                                                                  11
                                                                 Audit of VA’s Hearing Aid Services


                    reports from each medical facility to review factors affecting timeliness of
                    issuing hearing aids.

Fraud               Audit steps were included to identify potentially fraudulent activities. We
Assessment          developed specific audit steps to identify if veterans’ medical records
                    included the required documentation to support the medical need for the
                    hearing aid.

Data Reliability    We used computer-processed data provided by the Office of Acquisition and
                    Logistics to identify issued hearing aid orders and completed repairs from
                    April 1, 2012, through September 30, 2012. To test the reliability of hearing
                    aid orders and repairs, we reviewed data fields to ensure the following.

                       Completeness of data
                       Data within our scope
                       Duplicate records not included
                       No calculation errors

                    For each medical facility visited, we also reviewed a sample of veterans’
                    medical records in VHA’s Computerized Patient Record System to confirm
                    staff had documented a medical need for the hearing aid. We also
                    determined the order dates in ROES and matched the dates in the
                    Computerized Patient Record System. We concluded the hearing aid orders
                    and repair data were complete and accurate for our use.

Government          Our assessment of internal controls focused on those controls relating to our
Standards           audit objective. We conducted this performance audit in accordance with
                    generally accepted government auditing standards. These standards require
                    that we plan and perform the audit to obtain sufficient, appropriate evidence
                    to provide a reasonable basis for our findings and conclusions based on our
                    audit objective. We believe that the evidence obtained provides a reasonable
                    basis for our findings and conclusions based on our audit objective.




VA Office of Inspector General                                                                  12
                                                                  Audit of VA’s Hearing Aid Services


Appendix C 	 Statistical Sampling Methodology

                    To evaluate the effectiveness of VA’s administration of hearing aid services,
                    we selected a representative sample of VA medical facilities to conduct site
                    visits. In addition, to determine if audiologists documented the veterans’
                    medical need for hearing aids, we selected a representative sample of hearing
                    aid orders from the sample of sites for review.

Population	         All hearing aid order and repair data were located in DALC’s ROES. We
                    obtained the hearing aid data from the Office of Acquisition and Logistics.
                    Our audit universe included more than 285,000 hearing aids ordered with an
                    issue date from April 1, 2012, through September 30, 2012. The universe’s
                    total value was about $105 million. In addition, our audit universe included
                    about 199,000 completed hearing aid repairs for this same period, which had
                    a total value about $7.5 million.

Sampling            We conducted a two-stage stratified random sample. In the first stage, we
Design              selected 6 statistically sampled VA medical facilities from 142 sites to
                    conduct site visits. For this sample, we did not exclude any VA medical
                    facilities in the universe, but we did not include community based outpatient
                    clinics, outpatient clinics, or medical facilities from the same Veterans
                    Integrated Service Networks. We segregated the universe of orders into
                    strata based on the number of orders and issuing timeliness above the
                    universe average. We calculated the universe average as number of days
                    from date ordered to date issued. We selected two sites from each of the
                    three strata that included:

                       Number of hearing aid orders between 400 and 1,999
                       Number of hearing aid orders over 2,000
                       Percentage of orders issued timely compared with the universe average




VA Office of Inspector General                                                                   13
                                                                      Audit of VA’s Hearing Aid Services


                    Table 3 provides the number and cost of hearing aids ordered at the six VA
                    medical facilities selected during the period of April 1, 2012, through
                    September 30, 2012.

Table 3
                         Number and Cost of Issued Hearing Aids Orders at Sample Sites
                                                                  Number of          Cost of Hearing
                       VA Medical Facility (Location)
                                                                Issued Orders         Aid Orders
                      Central Alabama Veterans Health Care
                                                                       987                $368,558
                         System (Montgomery, AL)
                      James A. Haley Veterans’ Hospital
                                                                      2,150                736,473
                         (Tampa, FL)
                      VA New Jersey Health Care System
                                                                       827                 309,427
                         (Lyons, NJ)
                      VA Palo Alto Health Care System
                                                                      2,569                966,914
                         (Palo Alto, CA)
                      Manchester VA Medical Center
                                                                      1,259                423,267
                         (Manchester, NH)
                      Southern Arizona VA Health Care
                                                                      1,686                619,596
                         System (Tucson, AZ)
                       Total                                          9,478            $3,424,235
                      Source: VA OIG analysis of the universe of VA’s ordered and issued hearing aids from
                      April 1, 2012, through September 30, 2012, for our selected sites.

                    In the second stage, we selected a random sample of 30 hearing aid orders
                    from each of the selected VA medical facilities totaling 180 orders. All
                    orders had the probability of being selected to allow making a projection
                    over the whole population and by strata. We used this second-stage sample
                    to determine if staff documented a medical need for the hearing aid in the
                    veterans’ medical record.




VA Office of Inspector General                                                                         14
                                                                            Audit of VA’s Hearing Aid Services


Appendix D           Under Secretary for Health Comments


                  Department of
                  Veterans Affairs
                                                                    Memorandum
          Date:	     January 30, 2014

          From:	     Under Secretary for Health (10)

          Subj:	     OIG Draft Report, Audit of VA’s Hearing Aid Services (Project No. 2012-02910-R4-
                     0158) (VAIQ 7436139) 


            To:      Assistant Inspector General for Audits and Evaluations (52)


                     1. I have reviewed the draft report and concur with the report’s recommendations.
                     Attached is the Veterans Health Administration’s corrective action plan for
                     recommendation 1.

                     2. Thank you for the opportunity to review the draft report. If you have any
                     questions, please contact Karen Rasmussen, Director, Management Review
                     Service (10AR) at (202) 461-6643.



                     Robert A. Petzel, M.D.



                     Attachment




VA Office of Inspector General                                                                             15
                                                                   Audit of VA’s Hearing Aid Services


                                                                                        Attachment

                         VETERANS HEALTH ADMINISTRATION (VHA)
                                      Action Plan


OIG Draft Report, Audits and Evaluations: Audit of VA’s Hearing Aid Services


Date of Draft Report: December 20, 2013

Recommendations/                           Status                         Completion Date
Actions


Recommendation 1. We recommend the Under Secretary for Health develop a plan to
implement productivity standards and staffing levels for audiology clinics.

VHA Comments

Concur

The Veterans Health Administration (VHA) has a plan in place to establish productivity
standards for all physician specialties to be completed in fiscal year 2015. In response to this
OIG recommendation, VHA has expanded the plan for establishing productivity standards to
include the non-physician discipline of Audiology beginning in fiscal year 2016. The Office of
Productivity, Efficiency and Staffing (OPES) will develop a tool for the collection and reporting of
productivity for non-physician disciplines, including Audiology. The Audiology national program
office and OPES have already begun discussing collaborations for developing this tool. Once
this tool is established and data can be collected, the information will be used to develop and
recommend staffing standards for Audiology in VHA.

To complete this action plan, VHA will provide documentation that Audiology is included in the
implementation plan for establishing productivity standards.

                                                          In progress             March 31, 2014

    Veterans Health Administration

    January 2014




VA Office of Inspector General                                                                    16
                                                                               Audit of VA’s Hearing Aid Services


Appendix E            Principal Executive Director of Office of Acquisitions, 

                      Logistics, and Construction Comment 



                  Department of
                  Veterans Affairs
                                                                      Memorandum
          Date:      February 5, 2014

          From:      Principal Executive Director, Office of Acquisition, Logistics, and Construction (003)

          Subj:      Office of the Inspector General Draft Report, “Audit of VA’s Hearing Aid Services”
                     (2012-02910-R4-0158) (VAIQ No. 7426556)
            To:      Assistant Inspector General for Audits and Evaluations (52)


                     1. The Office of Acquisition, Logistics, and Construction (OALC) has reviewed the
                     subject report and takes seriously the welfare of the Veterans we serve. OALC fully
                     concurs with the draft report findings and took immediate steps to remedy
                     Recommendations 2 and 3 in anticipation of the draft report:
                        a. Recommendation 2: We recommend the Principal Executive Director of
                        Office of Acquisition, Logistics, and Construction determine the appropriate
                        staffing levels based on workload at the Denver Acquisition and Logistics
                        Center’s repair lab to help meet the timeliness standard for repair.
                        Over the past six months the Denver Acquisition and Logistics Center (DALC)
                        has introduced efficiencies through a new contracting vehicle and successfully
                        brought repair timeliness within standards. Prior to June 1, 2013, the majority of
                        DALC repairs consisted of earmold services on hearing aids coming in for repair.
                        New hearing aid repair contracts went into effect on June 1, 2013, requiring that
                        vendors complete the earmold service with the repair of an aid so they are no
                        longer done at the DALC. The new contracts also instituted a flat fee for all
                        repairs within a specific category to eliminate additional repair requests and
                        charges. Since this time, the DALC improved its timeliness statistics, eliminated
                        the backlog, and brought repairs within a more appropriate range of its timeliness
                        standard of 5 days. The DALC will continue to monitor its compliance with this
                        standard.

                      Month of FY 2013       Timeliness    Comment
                      June                   15 days       Backlog in earmold services from previous contract
                      July                   6 days        Summer increase in repairs due to heat/humidity
                      August                 6 days        Summer increase in repairs due to heat/humidity
                      September              2 days        Under standard
                      October                4 days        UnderIn standard
                      November               6 days        Annual pre-holiday increase in repairs
                      December               5 days


                        In addition, the DALC sought and received funding for two additional employee
                        positions for the Laboratory Section.




VA Office of Inspector General                                                                                  17
                                                                           Audit of VA’s Hearing Aid Services




                   Page 2

                   Subject: Office of the Inspector General Draft Report, “Audit of VA’s Hearing Aid
                   Services” (2012-02910-R4-0158) (VAIQ No. 7426556)




                      b. Recommendation 3: We recommend the Principle Executive Director of
                      Office of Acquisition, Logistics, and Construction ensure Denver Acquisition and
                      Logistics Center management establish controls to timely track and monitor
                      hearing aids from the date received for repair.
                      Since May 2013, the DALC deployed a new standard which requires hearing aid
                      repair requests to be captured into its centralized automated system whereby the
                      receipt of aids are logged within 34 hours of receipt. Additionally, use of the
                      system has demonstratively improved efficiencies in customer responsiveness
                      through the immediate query and retrieval of Veterans’ inquiry data.
                   2. Based upon the aforementioned improvement, OALC requests
                   Recommendations 2 and 3 be closed as completed.

                   3. Should you have any questions regarding this submission, please contact Mrs.
                   Annette Powe, OALC at (202) 32-5454 or annette.powe@va.gov.




                  Glenn D. Haggstrom




VA Office of Inspector General                                                                            18
                                                        Audit of VA’s Hearing Aid Services


Appendix F          Office of Inspector General Contact and Staff
                    Acknowledgments

                      OIG Contact 	      For more information about this report, please
                                         contact the Office of Inspector General at
                                         (202) 461-4720.

                      Acknowledgments	   Cherie E. Palmer, Director
                                         Nilda Bueno
                                         Alicia Castillo-Flores
                                         Mary Ann Fitzgerald
                                         Theresa Golson
                                         David Lakoskey
                                         John Pawlik
                                         Jennifer Roberts
                                         Nelvy Viguera Butler
                                         Herman Woo




VA Office of Inspector General                                                         19
                                                               Audit of VA’s Hearing Aid Services


Appendix G          Report Distribution

                    VA Distribution

                    Office of the Secretary
                    Veterans Health Administration
                    Veterans Benefits Administration
                    National Cemetery Administration
                    Assistant Secretaries
                    Office of General Counsel

                    Non-VA Distribution

                    House Committee on Veterans’ Affairs
                    House Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    House Committee on Oversight and Government Reform
                    Senate Committee on Veterans’ Affairs
                    Senate Appropriations Subcommittee on Military Construction, Veterans
                      Affairs, and Related Agencies
                    Senate Committee on Homeland Security and Governmental Affairs
                    National Veterans Service Organizations
                    Government Accountability Office
                    Office of Management and Budget




             This report is available on our Web site at www.va.gov/oig.




VA Office of Inspector General                                                                20
